No.
IN THE

jj&xxpxtxm (Eonxt af tify ptmiefr States
Brian D. Swanson, Petitioner,
v.
United States of America, Respondent.
PETITION FOR A WRIT OF
CERTIORARI
/
CERTIFICATE OF SERVICE
I hereby certify that on February 1, 2020, three (3) copies of the PETITION FOR
A WRIT OF CERTIORARI in the above-captioned case were served, as required by
Supreme Court Rule 29.5(c), on the following:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
Randolph L. Hutter
U.S. Department of Justice, Appellate Section
P.O. Box 502
Washington, D.C. 20044
I declare under penalty of perjury that the foregoing is true and correct.
Executed on Febru

, 2020

''Zfrdri
sen
Petitioner, Pro Se

